No.

IN THE
SUPREME COURT OF THE UNITED STATES

Mary Klebba-Shulga
(Your Name)

— PETITIONER

VS.
Jodi Shulga

— RESPONDENT (S)
PROOF OF SERVICE

I Mary Klebba-Shulga
June 11

_________________, do swear or declare that on this date,
, 20 20 ; as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Attorney Olga Allen, 30 N. LaSalle St. Suite 1210 Chicago, IL 60602
Attorney Brian Hurst, 30 N. LaSalle St. Suite 1210, Chicago, IL 60602
Attorney Dean Taradash, 180 N LaSalle St. 37th Floor, Chicago, IL 60601

Attorney Paul Feinstein, 10 S LaSalle St. Ste 1420, Chicago, IL 60603
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 11

, 20.20

Mazy, fClehhd ~<Shulg&
(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Mary Klebba-Shulga
(Your Name)

— PETITIONER

VS.

S

Jodi Shulga

— RESPONDENT(S)

PROOF OF SERVICE
(Added: Reasons for Granting the Petition)
T] Mary Klebba-Shulga _________________, do swear or declare that on this date,
August 22

, 2020-, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Attorney Olga Allen, 30 N, LaSalle St. Suite 1 210Chicago, IL 60602
Attorney Brian Hurst, 30 N. LaSalle St. Suite 1210, Chicago, IL 60602
Attorney Dean Taradash, 1 8CN LaSalle St. 37th Floor, Chicago, IL 60601

Attorney Paul Fei nstein, 1 OS LaSalle St. Ste 1 4 20,Chicago, IL 60603
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 22

,20 20

fll&rtj, lfctie6fa,-£faJ!p&
(Signature)

